                Appeals Complied With the Provisions of the
                    Law for the Collection Due Process

                                     March 2004

                        Reference Number: 2004-40-067




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.

Redaction Legend:
3d = Identifying Information - Other Identifying Information of an Individual or Individuals
                                                 DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




INSPECTOR GEN ERAL
      for TAX
  ADMINISTRATION




                                                         March 26, 2004


       MEMORANDUM FOR CHIEF, APPEALS


       FROM:                            Gordon C. Milbourn III
                                        Acting Deputy Inspector General for Audit

       SUBJECT:                         Final Audit Report - Appeals Complied With the Provisions of the
                                        Law for the Collection Due Process (Audit # 200340055)


       This report presents the results of our review of Internal Revenue Service (IRS)
       compliance with the law regarding taxpayer rights to appeal the filing of a lien or intent
       to levy. The overall objective of this review was to determine whether the IRS complied
       with the provisions of 26 United States Code (U.S.C.) Sections (§§) 6320 and 63301
       when taxpayers exercised their right to appeal the filing of a lien or the intent to levy.
       The Treasury Inspector General for Tax Administration (TIGTA) is required to determine
       annually if the IRS complied with the legal guidelines and required procedures for the
       filing of a notice of lien or a notice of intent to levy and the right of the taxpayer to
       appeal. 2
       The Appeals Officers and Settlement Officers (hearing officers) substantially complied
       with the requirements of the law when conducting Collection Due Process (CDP)
       hearings. The hearing officers verified that the IRS fo llowed the applicable laws or
       administrative procedures during the lien and levy process. They determined if the
       proposed collection actions properly balanced the need for efficient collection of taxes
       with any legitimate taxpayer concerns. In addition, the hearing officers followed
       Appeals procedures by including information such as in which court the taxpayers must
       file their requests for judicial review, any relief given to the taxpayers, and any
       subsequent actions to be taken by the IRS and the taxpayers.
       3d---------------------------------------------------------------------------------------------------------
       --------------------------------------------------------------------------------------------------------------
       ---------------------------------------------------------- As such, the hearing officer did not follow

       1
           26 U.S.C. §§ 6320 and 6330 (Supp. IV 1998).
       2
           26 U.S.C. §§ 7803(d)(l)(A)(iii) and (iv) (Supp. IV 1998).
                                                         2

all requirements of the law by not providing the requested levy hearing. In another
7 (10.8 percent) of the CDP cases reviewed, the hearing officers did not address, in the
determination letters and summary notices of determination, all of the issues raised by
the taxpayers.
We recommended that, for the 3d-------------------------------------------------------------
------------------------------------------------------------------------------------------------------------------
----------------------------------------------------------------------------- -------------------------------------
--------- -
The recommendations from our Fiscal Year 2002 report will continue to provide benefits
on tax administration by protecting taxpayers’ rights and entitlements for 67 CDP cases
in which hearing officers did not always follow the provision of the law and 470 CDP
cases in which the hearing officers did not always address all provisions of the law in
the determination letter. Appendix IV of this report provides a detailed description of
these benefits, which will be included in our Semiannual Report to the Congress.
Management’s Response: IRS management responded that they have been working
aggressively to improve the processing of CDP cases in a variety of ways: through
training of employees not as familiar with Collection function issues, through providing
detailed instructions, and through expansion of webpage examples and other contents.
The IRS agreed with our recommendation for 3d---------------------------------------------
-----------------------------------------------------------------------------------------------------------------
--------------------------------------------------------------------------------------------------------
-------------------------------------------------------------------------------------------------------
Management’s complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
                                    Appeals Complied With the Provisions
                                   of the Law for the Collection Due Process




                                                  Table of Contents


Background ...........................................................................................................Page 1
Hearing Officers Substantially Complied With the Law and
Appeals Procedures When Conducting Collection Due
Process Hearings .................................................................................................Page 3
          Recommendation 1: .................................................................. Page 5

Determination Letters and Summary Notices of Determination
Did Not Document All the Issues Raised by Taxpayers ................................Page 5
Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 8
Appendix II – Major Contributors to This Report.............................................Page 9
Appendix III – Report Distribution List...............................................................Page 10
Appendix IV – Outcome Measures....................................................................Page 11
Appendix V – Synopsis of the Internal Revenue Service
Collection Process, Lien and Levy Filing Procedures, and
Collection Due Process .......................................................................................Page 12
Appendix VI – Management’s Response to the Draft Report .......................Page 15
              Appeals Complied With the Provisions
             of the Law for the Collection Due Process

                       When initial contacts by the Internal Revenue Service (IRS)
Background             do not result in the successful collection of unpaid taxes, the
                       IRS has the authority to attach a claim to the taxpayer’s
                       assets for the amount of unpaid tax liability. 1 This claim is
                       commonly referred to as a lien. The IRS also has the
                       authority to work directly with financial institutions and
                       other parties to obtain from them funds that are owed to the
                       taxpayer. 2 This procedure is commonly referred to as a
                       levy.
                       Since January 19, 1999, the IRS has been required to notify
                       taxpayers in writing when a Notice of Federal Tax Lien has
                       been filed and to let taxpayers know of its intent to levy. 3
                       The taxpayers may appeal the lien or levy action through the
                       Collection Due Process (CDP). This is done by filing a
                       Request for a Collection Due Process Hearing (Form 12153)
                       or other written communication to formally request a CDP
                       hearing. The taxpayer must do so within 30 calendar days
                       plus 5 business days of the filing of the lien or 30 calendar
                       days from the date of the levy notice.
                       The taxpayer is entitled to only one CDP hearing for the tax
                       periods covered by the lien or levy. Once the IRS receives a
                       CDP hearing request, all tax collection efforts are suspended
                       until the Appeals function issues its determination to the
                       taxpayer and the taxpayer has the opportunity to appeal to
                       the tax court.
                       Once a hearing is requested and collection actions are
                       suspended, an impartial Appeals Officer or Settlement
                       Officer (hearing officer) should conduct the appeal
                       proceedings. According to the statute, an impartial hearing
                       officer would have no prior involvement with respect to the
                       unpaid tax liability under review.
                       During the CDP hearing, the hearing officer must determine
                       whether the IRS followed all applicable laws or
                       administrative procedures related to the lien or levy. The
                       hearing officer must also address any issues the taxpayer
                       may raise relevant to the unpaid tax or the proposed levy,
                       such as an appropriate spousal defense, a challenge to the

                       1
                         26 United States Code (U.S.C.) Section (§) 6321 (1994).
                       2
                         26 U.S.C. § 6331 (1994 and Supp. IV 1998).
                       3
                         Treasury Regulation § 301.6320 and § 301.6330 (January 18, 2002).
                                                                                     Page 1
 Appeals Complied With the Provisions
of the Law for the Collection Due Process

          appropriateness of the collection actions, and other
          collection alternatives. However, the taxpayer may not raise
          an issue that was considered at a prior administrative or
          judicial hearing as long as the taxpayer participated
          meaningfully in the prior proceeding.
          After considering the issues and if the proposed collection
          action balances efficient tax collection with the taxpayer’s
          legitimate concerns, the Appeals function issues a
          determination letter or summary notice of determination to
          the taxpayer. 4 The determination letter and summary notice
          of determination present the hearing officer’s findings and
          decisions, agreements reached with the taxpayer, any relief
          given the taxpayer, and any actions the taxpayer and the IRS
          are required to take. The determination letter also provides
          an explanation of the right to appeal the IRS’ decision
          within 30 days of the date of the Appeals function
          determination by filing a petition or complaint in the
          appropriate Federal Tax Court or United States (U.S.)
          District Court. When a summary notice of determination is
          issued, the taxpayer waives the right to appeal. A synopsis
          of the IRS collection process, lien and levy filing
          procedures, and the CDP is included in Appendix V.
          The Treasury Inspector General for Tax Administration
          (TIGTA) is required to determine annually if the IRS
          complied with the legal guidelines and required procedures
          for the filing of a notice of lien or a notice of intent to levy
          and the right of the taxpayer to appeal. 5 This is the fourth
          audit conducted by the TIGTA of the Appeals function’s
          compliance with the CDP guidelines and procedures.
          We performed this audit in the National Headquarters of the
          Chief, Appeals, in Washington, D.C., from August to
          December 2003. The audit was conducted in accordance
          with Government Auditing Standards. Detailed information
          on our audit objective, scope, and methodology is presented
          in Appendix I. Major contributors to the report are listed in
          Appendix II.

          4
            Determination Letter (Letter 3193-c) and Summary Notice of
          Determination, Waiver of Right to Judicial Review of a CDP
          Determination, and Waiver of Suspension of Levy Action
          (Form 12257).
          5
            26 U.S.C. §§ 7803(d)(l)(A)(iii) and (iv) (Supp. IV 1998).
                                                                         Page 2
                          Appeals Complied With the Provisions
                         of the Law for the Collection Due Process

                                   The hearing officers substantially complied with the
Hearing Officers Substantially
                                   requirements of 26 U.S. Code (U.S.C.) Sections (§§)
Complied With the Law and
                                   6320 and 6330 6 when conducting CDP hearings. In
Appeals Procedures When
                                   58 (98.5 percent) of 59 CDP cases reviewed, 7 the hearing
Conducting Collection Due
                                   officers adequately considered the following provisions of
Process Hearings                   the law. The hearing officers:
                                   .. Obtained verification that the IRS followed the
                                       applicable laws or administrative procedures during the
                                       lien and levy process.
                                   .. Considered the issues raised by the taxpayer.
                                   .. Considered if the proposed collection actions properly
                                       balanced the need for efficient collection of taxes with
                                       any legitimate concerns of the taxpayer about the
                                       intrusiveness of the liens or levies.
                                   The hearing officers generally took the necessary and proper
                                   actions in the CDP cases reviewed. When taxpayers did not
                                   respond to contacts or attend CDP hearings, the hearing
                                   officers made determinations as appropriate based on
                                   available information. In these CDP cases, the hearing
                                   officers were required to make the decisions and issue
                                   determination letters based on the information available in
                                   the files and on IRS computer systems.
                                   However, 3d--------------------------------------------------------
                                   3d-----------------------------------------------------------------
                                   ----------------------- - ----------------------------------
                                   -----------------------------------------------------------------------
                                   -------------------------------------------------------------------------
                                   --------------------------------------------------------------------
                                   ---------------------------------------------------------------
                                   ---------------------------------------------- - ----------------------


                                   6
                                     26 U.S.C. §§ 6320 and 6330 (Supp. IV 1998).
                                   7
                                     Our sample consisted of 65 CDP cases, but documentation was
                                   available to make a determination of compliance with the legal
                                   provisions of the law in only 59 of those cases. However, to be
                                   conservative, report projections and error rates were based on the
                                   65 cases sampled assuming the 6 cases that could not be reviewed were
                                   correct (see Appendix IV).
                                   8
                                     Error rate is calculated based on the total sample of 65 cases.
                                   9
                                     The ACDS is a computerized case control system used to control and
                                   track cases throughout the appeal process.
                                                                                                     Page 3
 Appeals Complied With the Provisions
of the Law for the Collection Due Process

          3d-----------------------------------------------------------------
          ----------------------- -
          Projecting to the total population of 4,362 CDP cases with
          determination letters and summary notices of determination
          on the ACDS between May 1, 2003, and July 31, 2003,
          similar taxpayer entitlements could have been affected in
          67 CDP cases. If a requested hearing was not held and
          collection actions were initiated, there would be the
          potential for a legal violation in those CDP cases.
          In 6 (9.2 percent) of the 65 CDP cases sampled, the files
          maintained by the Appeals function did not contain
          sufficient documentation for us to determine whether the
          hearing officers had considered the issues raised by the
          taxpayer and any legitimate concerns over the intrusiveness
          of the liens or levies. Specifically, the six case files did not
          contain the documents the taxpayers submitted outlining the
          specific challenges raised in the appeal, the Forms 12153, or
          any other written requests.
          Once a CDP hearing was complete, the Appeals function
          maintained a file documenting the CDP hearing process.
          However, the Appeals function does not require that the
          Form 12153 be maintained. The Appeals function forwards
          the complete hearing file that contains the Form 12153 and
          other CDP case documentation to the next IRS function that
          will handle future case actions once it is determined the
          taxpayer will not appeal. We requested copie s of the
          Forms 12153 from the Appeals function, but it was unable
          to obtain this documentation for these six CDP cases.
          The Appeals function provided guidance to assist the
          hearing officers in conducting CDP hearings to comply with
          the legal requirements in 26 U.S.C. §§ 6320 and 6330. The
          Appeals function also established a procedure in which the
          Appeals Team Managers review proposed determination
          letters to assure the correctness of the proposed actions.
          There was also an established quality review process in
          which a sample of CDP cases is periodically reviewed
          through the Appeals Quality Measurement System
          (AQMS). With a 98.5 percent compliance rate, we do not
          believe any additional corrective actions are currently
          needed. The current procedures adequately assure

                                                                           Page 4
                         Appeals Complied With the Provisions
                        of the Law for the Collection Due Process

                                  compliance with the legal requirements of 26 U.S.C.
                                  §§ 6320 and 6330.

                                  Recommendation

                                  The Chief, Appeals, should:
                                  3d- ----------------------------------------------------------------
                                      -------------------------------------------------------------------
                                      ------------------ ------------------------------------------------
                                      ---------------------------------------------
                                  ------------------------------ ----------------------------------
                                  ---------------------------------------------------------------
                                  --------------------------------------------------------------------------
                                  --------------------------------------------------------------------
                                  --------------
                                  While the hearing officers substantially complied with the
Determination Letters and
                                  established Appeals function procedures, in 7 (10.8 percent)
Summary Notices of
                                  of the 59 CDP cases reviewed the hearing officers did not
Determination Did Not Document
                                  address in the determination letters and summary notices of
All the Issues Raised by
                                  determination all of the issues raised by the taxpayers. 10 We
Taxpayers
                                  projected our findings in the 7 CDP cases to the total
                                  population of 4,362 CDP cases on the ACDS between
                                  May 1, 2003, and July 31, 2003. We estimated that similar
                                  documentation issues could exist in 470 CDP cases.
                                  The Code of Federal Regulations 11 (C.F.R.) and Appeals
                                  function procedures state the determination letters and
                                  summary notices of determination must document that all
                                  issues raised by the taxpayer were considered during the
                                  CDP hearing. If the determination letters and summary
                                  notices of determination provided to taxpayers do not
                                  address all relevant issues, the taxpayers and any reviewing
                                  courts might not be able to easily determine that the laws
                                  and administrative procedures were followed and that the


                                  10
                                     Documentation was available to make a determination regarding
                                  whether all issues raised by taxpayers were documented in only 59 of
                                  the 65 cases sampled. To be conservative, the report projections and
                                  error rates were based on the 65 cases sampled assuming the 6 cases that
                                  did not contain the necessary documentation were correct (see
                                  Appendix IV).
                                  11
                                     26 C.F.R. 301.6330-1T(e)(A-E8).
                                                                                                    Page 5
 Appeals Complied With the Provisions
of the Law for the Collection Due Process

          relevant facts presented by the taxpayers were considered.
          This could place an additional burden on taxpayers if they
          cannot determine the basis for the Appeals function’s
          decision or whether all the issues were addressed.
          Not adequately documenting and addressing a taxpayer’s
          concerns could cause a CDP case to be remanded back to
          the Appeals function for reconsideration if the office of the
          Chief Counsel or reviewing courts cannot readily make a
          determination on the integrity of the appeal process.
          According to Appeals function records, in Fiscal Year 2002,
          107 CDP cases were returned from the office of the Chief
          Counsel or the courts to the Appeals function for further
          development.
          The hearing officers did ensure the determination letters and
          summary notices of determination contained other required
          information to address specific provisions of the law,
          including:
          .. Whether the IRS followed all the applicable rules and
             administrative procedures.
          .. Whether the assessment of the proposed collection
             action balanced efficient tax collection with the
             legitimate concern that any collection action be no more
             intrusive than necessary.
          .. Which court the taxpayer should petition if the taxpayer
             seeks judicial review of the Appeals function’s
             determination (if applicable).
          .. Any relief given to the taxpayer.
          .. Actions required by the IRS or the taxpayer.
          Appeals function management has established controls to
          help ensure the determination letter and summary notice of
          determination contain the required information. Appeals
          function procedures require that the Appeals Team Manager
          or leader review each proposed determination letter,
          summary notice of determination, and file to assure the
          correctness of the proposed action. Appeals Team
          Managers did review the seven CDP cases in which issues
          raised by the taxpayer were not addressed in the


                                                                Page 6
 Appeals Complied With the Provisions
of the Law for the Collection Due Process

          determination letter, but the managerial reviews did not
          identify the deficiency.
          The AQMS is another control to provide Appeals function
          managers with data on the quality of their CDP hearing
          process. As part of their review, AQMS reviewers evaluate
          the administrative file and determine whether the hearing
          officers addressed all the issues raised by the taxpayers.
          From May 2003 to July 2003, the AQMS reviews did not
          identify any exceptions for this issue.
          With the current compliance rate, we do not believe any
          additional corrective actions are needed. With the proper
          emphasis on the current guidelines and controls, the Appeals
          function can adequately assure compliance with the legal
          requirements of 26 U.S.C. §§ 6320 and 6330. Therefore, we
          are making no additional recommendations.




                                                                Page 7
                                  Appeals Complied With the Provisions
                                 of the Law for the Collection Due Process

                                                                                                     Appendix I


                            Detailed Objective, Scope, and Methodology

The objective of this audit was to determine whether the Internal Revenue Service (IRS)
complied with 26 United States Code (U.S.C.) Sections (§§) 6320 and 6330 1 when taxpayers
exercised their right to appeal the filing of a lien or the intent to levy.
I.         To determine whether the IRS was in compliance with 26 U.S.C. §§ 6320 and 6330 and
           the IRS guidelines for Collection Due Process (CDP) cases resulting in the issuance of
           formal Appeals function CDP determination letters and summary notices of
           determination, we:
           A. Selected a statistical sample of 65 CDP cases closed from May 1, 2003, through
              July 31, 2003, from an extract of 4,362 CDP case inventory records controlled on the
              Appeals Centralized Database System (ACDS). 2 We performed limited tests to verify
              the accuracy of the ACDS extract data provided. We also compared a sample of
              records from the database extract to the ACDS database to ensure the information
              was complete and accurate.
               For the purpose of projecting the sample results to the entire population, we used
               statistical sampling. We used attribute sampling and the following formula to
               calculate the sample size (n) for the CDP cases with determination letters and
               summary notices of determination:
                                     n = (N(Z2 )p(1-p))/(N(E2 )+(Z2 )p(1-p)).
                                     N = Population (4,362 CDP cases).
                                     Z = Desired Confidence Level (90 percent).*
                                     p = Expected Error Rate (4 percent).**
                                     E = Precision Level (3.99 percent).
                              * To calculate sample size, used the standard deviation factor (1.645) for
                              the 90 percent confidence level.
                              ** 4 percent was the error rate in the last audit.
           B. Reviewed the selected CDP cases to determine if the hearing officers complied with
              26 U.S.C. §§ 6320 and 6330 and related procedures and if taxpayers’ rights were
              protected.
           C. Discussed examples of the CDP cases that appeared to be potential violations with
              Appeals function personnel.

1
    26 U.S.C. §§ 6320 and 6330 (Supp. IV 1998).
2
    The ACDS is a computerized case control system used to control and track cases throughout the appeal process.
                                                                                                           Page 8
                          Appeals Complied With the Provisions
                         of the Law for the Collection Due Process

                                                                                 Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
James D. O’Hara, Audit Manager
Julia Tai, Senior Auditor
Nelva Blassingame, Auditor
Cindy J. Harris, Auditor
David Lowe, Auditor




                                                                                         Page 9
                         Appeals Complied With the Provisions
                        of the Law for the Collection Due Process

                                                                    Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief, Appeals AP




                                                                         Page 10
                               Appeals Complied With the Provisions
                              of the Law for the Collection Due Process

                                                                                                    Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable affect that our audit will have on
tax administration. These benefits will be incorporated into our Semiannual Report to the
Congress.
Type and Value of Outcome Measure:
.. Taxpayer Rights and Entitlements – Potential; 67 Collection Due Process (CDP) cases in
    which hearing officers did not always follow the provision of the law (see page 3).
.. Taxpayer Rights and Entitlements – Potential; 470 CDP cases in which the hearing officers
    did not always address all provisions of the law in the determination letter (see page 5).
Methodology Used to Measure the Reported Benefit:
From a nationwide statistically valid sample of 65 CDP 1 cases:
    .. We identified 1 (1.5 percent [1/65]) case in the 59 CDP cases we reviewed with evidence
       of the taxpayer’s issues and concerns in which the hearing officer did not follow the
       provision of the law when conducting the CDP hearing. There were a total of 4,362 CDP
       cases on the Appeals Centralized Database System (ACDS) in which taxpayers were
       issued a determination letter or summary notice of determination from May 1, 2003,
       through July 31, 2003. Projected to the population, hearing officers may not have
       followed all provisions of the law in 67 CDP cases (1/65 x 4,362). We are 90 percent
       confident that between 1 and 177 taxpayers were improperly denied certain CDP rights.
    .. We identified 7 (10.8 percent [7/65]) cases in the 59 CDP cases we reviewed with
       evidence of the taxpayer’s issues and concerns in which the hearing officers did not
       address all provisions of the law when conducting the CDP hearing. In particular, the
       determination letters and summary notices of determination did not address all of the
       issues raised by the taxpayers. There were a total of 4,362 CDP cases on the ACDS in
       which taxpayers were issued a determination letter and a summary notice of
       determination from May 1, 2003, through July 31, 2003. Projected to the population,
       hearing officers may not have addressed all provisions of the law in 470 CDP cases
       (7/65 x 4,362). We are 90 percent confident that between 193 and 747 taxpayers were
       improperly denied certain CDP rights.



1
 The original sample size was 65 CDP cases. However, in six of those cases we could not assess the issues or
concerns raised by the taxpayers, as the necessary documentation could not be provided. For the purpose of
projecting, we considered the 6 cases to be correct and made our report projections based on the total sample of
65 CDP cases.
                                                                                                            Page 11
                           Appeals Complied With the Provisions
                          of the Law for the Collection Due Process

                                                                                       Appendix V


                       Synopsis of the Internal Revenue Service
                 Collection Process, Lien and Levy Filing Procedures,
                              and Collection Due Process

The collection of unpaid tax begins with a series of letters (notices) sent to the taxpayer advising
him or her of the debt and asking for payment of the delinquent tax. The Internal Revenue
Service (IRS) computer systems are programmed to mail these notices when certain criteria are
met. If the taxpayer does not respond to the notice, the account is transferred for either personal
or telephone contact.
.. The IRS employees who make personal (face-to-face) contact with taxpayers are called
    Revenue Officers and work in the IRS field offices. The computer system used in most of
    the field offices to track collection actions taken on taxpayer accounts is called the Integrated
    Collection System.
.. The IRS employees who make only telephone contact with taxpayers are called Customer
    Service Representatives and work in call sites in the IRS Customer Service offices. The
    computer system used in the call sites to track collection actions taken on taxpayer accounts
    is called the Automated Collection System.
When contacts are made and the taxpayer still does not pay the tax liability, designated IRS
employees are authorized to file a Notice of Federal Tax Lien (NFTL). In addition, the IRS has
the authority to work directly with financial institutions and other parties to obtain funds owed to
the taxpayer. The taking of money owed to a taxpayer by a third party is commonly referred to
as a levy.

Federal Tax Lien

Liens protect the Federal Government’s interest by attaching a claim to the taxpayer’s assets
for the amount of unpaid tax liability. The right to file an NFTL is created under 26 United
States Code (U.S.C.) Section (§) 6321 (1994) when:
.. The IRS has made an assessment and given the taxpayer notice of the assessment, stating the
    amount of the tax liability and demanding payment.
.. The taxpayer has neglected or refused to pay the amount within 10 days after the notice and
    demand for payment.
The IRS is required to notify the taxpayer the first time an NFTL is filed for each tax period. It
has to notify the taxpayer within 5 days after the lien notice filing. The taxpayer then has
30 days, after that 5-day period, to request a Collection Due Process (CDP) hearing with the
Chief, Appeals.

                                                                                              Page 12
                            Appeals Complied With the Provisions
                           of the Law for the Collection Due Process

Levy

A levy is a legal seizure of property to satisfy a tax debt. Levies differ from liens in that while a
lien is a claim used as security for a tax debt, a levy actually takes the property to satisfy the tax
debt. The IRS authority to work directly with financial institutions and other parties to obtain
funds owed to taxpayers is provided under 26 U.S.C. § 6331 (1994 and Supp. IV 1998).
The IRS usually does not levy unless:
.. It has made an assessment and given the taxpayer notice of the assessment, stating the
    amount of the tax liability and demanding payment.
.. It has sent a Final Notice of Intent to Levy (Letter 1058) and a Notice of Your Right to a
    Hearing (levy notice) at least 30 days before the levy action. This 30-day period allows the
    taxpayer time to solve any problems created by the levy or to make other arrangements to
    pay.
For each tax period, the IRS is required to notify the taxpayer the first time it intends to collect a
tax liability by taking the taxpayer’s property or rights to property. It does this by sending the
taxpayer a levy notice. The IRS cannot levy on or seize property within 30 days from the date
this notice is mailed, given to the taxpayer, or left at the taxpayer’s home or office. During that
30-day period, the taxpayer may request a CDP hearing with the Chief, Appeals.
There are two exceptions to the notice of intent to levy provision. The IRS may issue a levy
without sending a notice or waiting 30 days when collection of the tax is in jeopardy. The IRS
may also levy on a taxpayer’s State tax refund without sending a notice or waiting 30 days.
However, the taxpayer can request a CDP hearing after the levy action for both of these
instances.

Collection Due Process

The IRS is required under 26 U.S.C. §§ 6320 and 6330 (Supp. IV 1998) to notify taxpayers in
writing that an NFTL has been filed and to let the taxpayers know of its intent to levy. If a
taxpayer elects to appeal the lien or levy action, he or she must submit a request for a CDP
hearing in writing within the time prescribed by the law.
Taxpayers are entitled to one CDP hearing per tax liability period for which an NFTL or intent to
levy has been filed. A hearing officer with no prior involvement with the unpaid tax conducts
the CDP hearing. However, at the taxpayer’s discretion, this requirement may be waived.
Unless the IRS believes collection of the tax is in jeopardy, the IRS will postpone the levy action
during the appeal process. In addition, under the CDP hearing process only, the IRS will also
suspend the 10-year collection statute of limitations during the appeal process and until the
determination is final.


                                                                                               Page 13
                            Appeals Complied With the Provisions
                           of the Law for the Collection Due Process

At the appeal, the taxpayer may raise any relevant issue related to the unpaid tax or the proposed
levy, including:
.. Spousal defenses.
.. The appropriateness of collection actions.
.. Other collection alternatives.
.. The existence or amount of the tax but only if the taxpayer did not receive a notice of
    deficiency for that liability or did not have an opportunity to dispute the tax liability.
An issue may not be raised if the taxpayer participated meaningfully in any previous
administrative or judicial proceeding in which the same issue was already raised and considered.
During the appeal, the hearing officer must:
.. Obtain verification from the IRS that the requirements of any applicable law or
    administrative procedure have been met.
.. Consider the specific issues raised by the taxpayer.
.. Consider if the proposed collection action properly balances the need for efficient collection
    of taxes with any legitimate concern of the taxpayer that the proposed collection action is
    more intrusive than necessary.
At the conclusion of the CDP hearing, the Appeals function will provide a written document to
the taxpayer informing him or her of the Appeals function’s determination. For a timely filed
CDP hearing request, the Appeals function will issue a CDP determination letter (Letter 3193-c)
or Summary Notice of Determination, Waiver of Right to Judicial Review of a CDP
determination, and Waiver of Suspension of Levy Action (Form 12257). The determination
letter explains the Appeals function’s findings and decisions, any relief given the taxpayer, and
any actions the taxpayer and/or the IRS are required to take. The CDP determination letter
informs the taxpayer that he or she may seek judicial review of an Appeals function
determination in the Federal Tax Court or U.S. District Court by filing a petition or complaint in
the appropriate court within 30 days of the date of the Appeals function determination. If the
court determines the appeal was made to the incorrect court, the taxpayer has 30 days after the
court’s determination to file the appeal with the correct court. The Appeals function will retain
jurisdiction over its determinations and how they are carried out. The taxpayer may also return
to the Appeals function if circumstances change and affect the original determination.
The Form 12257 also explains the Appeals function’s find ings and decisions, but it confirms that
the taxpayer agrees with the Appeals function determination, waives his or her rights to judicial
review of the Appeals function determination, and waives the suspension of levy action. In all of
the documents provided to the taxpayers, the hearing officer must demonstrate that he or she
complied with all the requirements of 26 U.S.C. §§ 6320 and 6330.


                                                                                                 Page 14
         Appeals Complied With the Provisions
        of the Law for the Collection Due Process

                                                    Appendix VI


      Management’s Response to the Draft Report




3d




 3d




                                                         Page 15
 Appeals Complied With the Provisions
of the Law for the Collection Due Process




                                            Page 16
